                   NATIONAL DRG VALIDATION STUDY
          UNNECESSARY        DMISSIONS TO HOSPITALS





OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS


                                                  AUGUST 1988
                  Office of Inspector General

The mission of the Office of Inspector General
                                                 (OIG)of

promote the efficiency, effectiveness and integrity    is to

programs in the United states Department Of Health and Human

Services (HHS). It does this by developing methods to
detect and prevent fraud , waste and abuse. Created by
statute in 1976, the Inspecto General keeps both the

Secretary and the Congress fully and currently informed

about programs or management problems and recommends

corrective action. The OIG performs its mission by

conducting audits , investigations and inspections with
approximately 1, 200 staff strategically located around the
country.

               Office of Analvsis and Inspections

This report is produced by the Office of Analysis and

Inspections (OAI),  one of the three major offices within the
OIG.. The other two are the Office of Audit and the Office

of Investigations. The ' OAI conducts inspections which are
typically, short-term studies designed to determine program

effectiveness , efficiency and vulnerability to fraud or
abuse.


                           This Report

Enti tIed " National DRG Validation Study, Unnecessary
Admissions to Hospitals " this study was
 conducted to analyze

and profile the characteristics of cases of unnecessary

admissions.
The report was prepared under the direction of Kaye

Kidwell , the Regional Inspector General of Region IX, Office
of Analysis and Inspections. Participating in this proj
were the following people 
                              ect
    Kathy L. Admire , Project Director

    Leonard Czaj ka , Senior Analyst
    Ruth E. Carlson , Program Assistant

    David Hsia , Medical Officer, Headquarters

    Wm. Mark Krushat , Mathematical Statistician

         Headquarters
                  NATIONAL DRG VALIDATION STUDY

            UNCESSARY ADMISSIONS TO HOSPITAL




RICHA P. KUSSEROW
INSPECTOR GENERA                                   AUGUST 1988

OAI-09-88-00880
                      TABLE OF CONTENTS


                                                       Page
EXECUTIVE SUMY
INTRODUCTION

FINDINGS

   INCIDENCE AND COST OF UNNECESSARY ADMISSIONS

     UNDER PPS ARE HIGH

   RATES OF UNNECESSARY ADMISSIONS VARY

   MOST UNNECESSARY ADMISSIONS NEEDED

     OUTPATIENT CARE

   UNNECESSARY ADMISSIONS ARE HEALTHIER,

     LESS COMPLEX CASES

   TWELVE PERCENT OF THE PATIENTS UNNECESSARILY

     ADMITTED TO HOSPITALS RECEIVED POOR

     QUALITY CARE

   IMPROPER DOCUMENTATION OF MEDICAL RECORDS

     IS A MAJOR PROBLEM

   TARGETING DIAGNOSIS RELATED GROUPS (DRGS)
     IDENTIFIED UNNECESSARY ADMISSIONS


RECOMMNDATIONS

APPENDICES

   APPENDIX A:   COMPARISON OF HOSPITALS BY NUMBER OF
                 UNNECESSARY ADMISSIONS: BED SIZE EFFECT
  APPENDIX B:    COMPARISON OF HOSPITALS BY NUMBER OF
                 UNNECESSARY ADMISSIONS: URBAN/RURAL LOCATION
  APPENDIX C:    COMPARISON OF HOSPITALS BY NUMBER OF
                 UNNECESSARY ADMISSIONS: PROFIT/NONPROFIT
                 STATUS

  APPENDIX D:    COMPARISON OF HOSPITALS BY NUMBER OF
                 UNNECESSARY ADMISSIONS: TEACHING/NONTEACHING
                 STATUS

   APPENDIX E:   SAMPLING AND METHODOLOGY

   APPENDIX F:   RANGE OF UNNECESSARY ADMISSIONS IN HOSPITALS

   APPENDIX G:   CHARACTERISTICS OF HOSPITALS WITH
                 6+ UNNECESSARY ADMISSIONS

   APPENDIX H:   UNNECESSARY ADMISSIONS BY MAJOR DIAGNOSTIC
                 CATEGORY
                         EXECUTIVE SUMY


PURSE This inspection examined unnecessary admissions to
hospitals under the prospective payment system (PPS) from a

number of perspectives , including: (1) the extent to which

they occurred in a random sample of hospitals  (2) charac­

teristics of hospitals with unnecessary admissions and

(3) characteristics of cases which were unnecessary
admissions. The report is one of a series in the National

Diagnosis Related Group (DRG) Validation study undertaken by
the Office of Inspector General (OIG)
BACKGROUND   Effective October 1983 , Congress mandated a
change in Medicare payments to hospitals from a cost-based

retrospective reimbursement system to a prospective payment

system.  Under PPS , hospitals currently receive a fixed
payment based upon 1 of 475 DRGs for each Medicare patient

discharge, regardless of the services provided or length of

time a patient spends in the  hospital.  Hospitals retain a
profit when patient care costs less than the DRG payment, but
must absorb losses when costs are higher than the DRG. The
PPS was intended to curb the rapidly escalating increases in

Medicare costs for acute inpatient care by giving hospitals

an incentive to reduce lengths of stay and eliminate unneces­

sary services while maintaining high quality   care. Both the
utilization and quality control peer review organizations

(PROs) and the SuperPRO (the contractor which assists the

Health Care Financing Administration (HCFA) in monitoring

PROs) review patient hospital stays for unnecessary admis­

sions.  Criteria used by the PROs to screen for unnecessary
admissions vary widely.


Because of a concern that PPS might give hospitals incentives

to admit patients unnecessarily, this issue was included in

the National DRG Validation   Study.   Given the risks associ­
ated with hospitalization , an unnecessary admission can

endanger a patient I s
                     health  (e. g. , increased risk of noso­
comial infections). In addition, reducing unnecessary

admissions to hospitals is one of the most effective ways of

saving Medicare costs.
Unnecessary admissions were identified by analyzing a random

sample of 7 050 Medicare patients discharged from 239 hospi­

tals between October 1984 and March    1985. These unnecessary
admissions were analyzed in terms of several hospital

variables , including bed size , urban/rural location , profit/
nonprofit status and teaching  status.   Comparisons of
hospi tals by necessary and unnecessary admissions , as well as

by frequencies of unnecessary admissions , were also made.

    Five DRGs are frequently associated with unnecessary

    admissions:
         DRG 68  (upper respiratory tract infections
                  patients over age 69)
         DRG 183 (digestive disorders , patients aged   18-69)
         DRG 239 (bone cancer)
         DRG 243 (medical back problems)
         DRG 294 (diabetes , patients over age 35)

    Although DRG 39 (cataract surgery) occurred frequently

    as an unnecessary admission, this procedure has shifted

    primarily to outpatient settings since our review.
RECOMMNDATIONS:

    The HCFA should ensure that Medicare does not pay for

    unnecessary hospital admissions by:

         determining why the PROs identify a substantially

         lower rate of unnecessary admissions than either

         the SuperPRO or the OIG


         analyzing admission review practices of PROs with

         low disagreement rates to identify exemplary models

         and best practices which could be used to assist

         other PROs


         developing acceptable disagreement rates between

         PROs and the SuperPRO for unnecessary admissions and

         creating incentives for the PROs to reduce their

         disagreement rates
         incorporating reconciliation of high disagreement

         rates into PRO performance evaluations for

         consideration in renewal of PRO contracts


         mandating that PROs use standardized screens or

         criteria for admission reviews and


         requiring that PROs improve their identification

         of unnecessary admissions in order to improve

         targeting of problem hospitals and physicians for

         intensified review. Approaches might include
         focusing on patients with short hospital stays , DRGs

         which are frequently unnecessary and types of

         hospitals with high rates of unnecessary admissions.

    The HCFA should ensure that hospitals meet Medicare I s
    conditions of participation regarding accuracy and

    completeness of patient medical records.

                              iii
                         INTRODUCTION



Effective October 1983 , Congress mandated a change in Medicare

payments to hospitals from a cost-based retrospective reim­

bursement system to a prospective payment system (PPS). Under

PPS , hospitals currently receive a fixed payment based upon
1 of 475 diagnosis related groups (DRGs) for each Medicare

patient discharge , regardless of the services provided or

length of time a patient spends in the   hospital. Hospitals
retain a profit when patient care costs less than the DRG

payment but must absorb losses when costs are higher than the

DRG. PPS was intended to curb the rapidly escalating
increases in Medicare costs for acute inpatient care by giving

hospitals an incentive to reduce lengths of stay and eliminate

unnecessary services while maintaining high quality care.

The Office of Inspector General (OIG) has undertaken a number

of initiatives to evaluate the effects of PPS on hospital

behavior and medical practices. To date, the OIG has

completed validation studies of DRG 14 (strokes), DRG 82

(respiratory neoplasms) and DRG 88 (chronic obstructive pulmo­

nary disease), as well as inspections on beneficiary notices

under PPS and activity by the utilization and quality control

peer review organizations (PROs) in identifying and handling

inappropriate discharges and transfers. The OIG also has

conducted pre- award audits of the PRO and SuperPRO contracts.
Current efforts underway include an audit on patient hospital

stays of less than 24 hours (excluding deaths), an ongoing

audit of Medicare profits in hospitals under PPS and a study

of DRG 129 (cardiac arrest). An inspection of PRO performance

has produced three draft reports on quality review activities

sanctions activities and PRO effectiveness.


Another major initiative is the National DRG Validation study,
which analyzes patterns of hospital behavior under   PPS. The
study is based on an analysis of extensive data compiled by

the Health Data Institute (HDI) of Lexington , Massachusetts

under contract to the OIG. This report on unnecessary patient
admissions to hospitals is one in a series generated from the

National DRG Validation Study.  Two reports in this series,
focusing on premature discharges from hospitals and the

accuracy of DRG coding, have been released. The OIG also has

released a draft report on poor quality care under PPS.
Additional reports will address short hospital stays and PRO

performance in monitoring PPS activities.
Backqround
Because of a concern that PPS might give hospitals incentives

to admit patients unnecessarily, this issue was included in

The HDI reviewers evaluated the patient I s condition at three
points: (1)  upon admission   (2) during the stay and
time of discharge. Registered nurses screened medical(3)records
                                                           at
for necessity of admission , using the Appropriateness

Evaluation Protocol (AEP). If problems were found , the medi­

cal record was referred to a board- certified physician with

extensive experience in peer review for a final determination.
A narrative summary was prepared describing the nature of each

unnecessary admission. Physicians ignored marginal problems

or cases involving honest differences in medical judgment

about appropriate case management. If documentation in the
medical record was so poor that reviewers could not determine

whether an admission was unnecessary, the patient was

considered to be a necessary admission. An OIG physician
evaluated all narrative summaries , confirming the conclusions

of medical reviewers on all unnecessary admissions.


An admission was considered unnecessary if no reason for

admission existed at the time a patient entered a hospital.
OIG staff analyzed hospitals by bed size, urban/rural loca­

tion , profit/nonprofit status and teachingstatus.   Hospitals
also were analyzed by the number of unnecessary admissions

occurring in their patient samples:   (a) none, (b) 1-2
(c) 3-5 and (d) 6 or more. Comparisons of necessary and
unnecessary admissions were made. Calculations were based on
weighted average scores and percentages (a summary of the data

appears in appendices A through D).   Fiscal projections were
based on (a) the rate of unnecessary admissions by hospital

size (b) total PPS discharges in Fiscal Year (FY) 1985 and
(c) estimated costs of providing care to these patients in
alternative medical settings.   Appendix E provides further
information on the study methodology.

                 DISTRIBUTION OF HOSPITALS BY NUBER
                  UNECESSARY ADMISSIONS (UAs) (N=239)
               UAs                 Hos    itals         Percent
                                                         10.
                                                         39.
                                                         35.
                                                         14.
           Total                    239                 100.

Types of Hospitals


The OIG study analyzed hospital behavior under PPS in terms of

four major variables: (1) size             of hospital, (2) urban/rural
location       (3) profit/ nonprofit       status and (4)   teaching
status.
Bed Size    Overall, small hospitals had the greatest problems

with unnecessary admissions (12. 5  percent of patient admis­
sions , compared with 10. 1 percent in medium hospitals and
  0 percent in large hospitals). This trend is most pro­

nounced when comparing hospitals with the highest frequencies

of unnecessary admissions (6 or more , which is at least

20 percent of sampled admissions). As the following table

indicates , 25. 3 percent of the small hospitals had 6 or more
unnecessary admissions , compared with only 5. 0 percent of the

large hospitals. Because larger hospitals treat a much higher

volume of patients , their lower rates still represent a

substantial number of unnecessary admissions.

                                COARISO by BE SIZE:
                         FF8UIES D f UNCESSY ADISSION (\I)
                                           N-239
Percent. of Hasp1tlls
                                                                       SI 11

                                                                          1N79J
                                                                       Med1\1
                                                                          ItJ
                                                                       lIp
                                                                         INI




                        o UA     1-2 UA                     1+ UA
 Teachinq and Nonteachinq Hospitals . Overall , nonteaching

 hospitals had a higher rate of unnecessary admissions

 (12. 5 percent as compared with 8. 8 percent in teaching hospi­
 tals). As the following table indicates, 18. 0 percent of the

 nonteaching hospitals had 6 or more unnecessary admissions

 compared with 3. 3 percent of the teaching hospitals.
                         COMARISON by TEACHING/NOTEACHING                     STATU:
                        FREQUIES                 D f   lHCESSARY ADMISSION (UAs)
                                                            N-239
Percent of Hosp1tlls

                                           47.                                               rllch1ng
                                                                                               INU
                                                                                             Monte,ch1n.
        ..0                                                                                    1N17BJ




                   o UA                        1-2 UA               H UA       1+ UA

Other Problems in Hospitals With High Rates of Unnecessary

Admissions    The 34 hospitals with 6 or more unnecessary
admissions also had twice as many premature discharges and

patients with quality of care problems. Although these hospi­
tals treated only 14. 4 percent of the patients in the full

sample (7 050 cases), they had 37. 0 percent of the unnecessary
admissions , 29. 7 percent of the premature discharges and
28. 2 percent of the poor quality of care          They also had
major problems with improper documentation of medical records

                                                                           cases.
(further discussion of this issue appears on pages 9 and 10).
In addition, patients unnecessarily admitted to these

hospi tals      had longer average lengths of stay                              Additional
information on these hospitals can be found in appendix 


MOST UNECESSARY ADMISSIONS NEEDED OUTPATIENT CAR
There were 749 reasons identified for the 740 unnecessary

admissions (9 patients had 2 reasons). Most of the unneces­
sary admissions needed medical attention , but not in an acute

care setting. As the following table indicates , reasons for

unnecessary admissions fell into five categories. The most
significant factor by far , occurring in 77. 8 percent of the

cases , was that treatment should have been provided in an
outpatient setting.
UNCESSARY ADMISSIONS AR HEALTHIER , LESS COMPLEX CAES
There are a number of indications that patients unnecessarily

admi tted to hospitals are healthier and have less complex
problems than those who are appropriately admitted.
Discharqe disposition . Eighty- nine percent of the unnecessary

admissions went directly home from the hospital (compared with

70. 5 percent of the necessary admissions). Keeping in mind
that unnecessary admissions represented 10. 5 percent of the

full patient sample , unnecessary admissions accounted for

  1 percent of the patients subsequently transferred to SNFs

and 7. 7 percent of the patients discharged with home health
orders.   They also accounted for 2. 9 percent of the patients
who died in the hospital.


Nosocomial infections    Unnecessary admissions had a lower

rate of nosocomial infections (4. 3 percent) than necessary

admissions (5. 8 percent).
Averaqe lenqth of stay (ALOS)     The ALOS for unnecessary
admissions was 4. 4 days , compared with 7. 6 days for necessary
admissions. Al though 64. 6 percent of the unnecessary admis­
sions stayed in the hospital less than 6 days , this was true

of only 37. 5 percent of the necessary admissions. ALOS for
unnecessary admissions was remarkably consistent , regardless

of type of hospital, a pattern which did not hold true for

necessary admissions.
Case Mix Index (CMI)   The CMI describes in a single measure
the complexity of cases in a hospital by reflecting the

weighted average of DRGs in that  hospital. Hospitals treating
a sicker patient population generally have a higher CMI. A

comparison of necessary and unnecessary admissions wi thin
hospitals found that unnecessary admissions had a lower CMI

indicating the cases were less complex. As the following
table indicates, the CMI is far more consistent for unneces­

sary admissions than necessary admissions , regardless of type

of hospital. The difference between necessary and unnecessary

admissions was most pronounced in large and teaching

hospitals.
                       PROPORTION OF CASES WITH

                        IMPROPER DOCUNTATION
                 Fre enc   of UAs in Hos    itals     N=239

                                 Unneces.    Neces.
  UAs in   Hospitals     Hosp.    Admi ts    Admi ts      Average
                                              32.             32.
           1-2                     76.        29.             32.
           3-5                     82.        38.             44.
                                   86.        41. 6           53.
        Average                    80.        34.             39.

TARGETING DIAGNOSIS RELATED GROUPS (DRGS) IDENTIFIED
UNCESSARY ADMISSIONS
At the time of our review , there were 468 possible DRGs; 352

(75. 2 percent) occurred at least once in the study sample;
unnecessary admissions occurred in half of these DRGs. The
OIG staff analyzed DRGs which had (a) the highest numbers of

unnecessary admissions (at least 10 cases) and (b) high rates
(unnecessary admissions occurred at least 20 percent of the

time).   Analysis was based on DRGs assigned by the fiscal
intermediary.
DRGs with the Hiqhest Numbers of Unnecessary Admissions
 The
following table lists the 16 DRGs which had the highest

absolute numbers of unnecessary admissions. The DRGs listed

on this table show wide variation in the percentage of cases

which were unnecessary admiss    ions.For example , DRG 127
 (heart failure and shock) was the sixth most common DRG to

occur as an unnecessary admission, but it occurred far more

frequently as a necessary admission   (i. e. , it was an
unnecessary admission only 4. 6 percent of the time). DRG 183
 (digestive disorders , patients aged 18-69) was sixteenth o

the list , but was an unnecessary admission 30. 3 percent of the

time.
All DRGs fall into 1 of 24 major diagnostic categories (MDCs).
The MDCs are classifications of medical problems by organ

system.   There was at least 1 unnecessary admission in 23 of
the MDCs , but three-fourths of the DRGs in the chart fell into

5 categories: (a) eye (b) respiratory system, (c) digestive
system (d) circulatory system and (e) musculo-skeletal system
and connective tissue. A breakout of all unnecessary

admissions by MDC appears in appendix       H.
                                           Except for DRG 39
DRGs with the Hiqhest Rates of Unnecessary Admissions
 The
following table describes 17 DRGs which were unnecessary

admissions at least 20 percent of the         (The table
excludes DRGs which occurred as unnecessary admissions less

                                                               time.
than five times in the full sample.    Although many of these

DRGs had lower numbers of unnecessary admissions than the DRGs

listed in the preceding table , they had the highest likelihood

of being an unnecessary admission. For example , admission

for DRG 240 (listed second in the table) was unnecessary

50 percent of the time , even though there were only

8 unnecessary admissions.

                 DRGs YITH THE HIGHEST RATES OF LWNECESSY ADISSIONS


                                                                       TOTAL
      ORG                                 DESCIPTI(J
            CATARACT SURGERY                                                   80.
      240   CONNECTIVE TISSUE DISORDERS       PATIENTS OVER                    50.
              AGE 69

      348   ENLARGED PROSTATE , PATIENTS OVER AGE 69                           50.
      425   ACUTE ADJUSTMENT REACTION                                          46.
      244   BONE INFECTION , PATIENTS OVER AGE 69                              42.
            DIZZINESS                                                          37.
      280   SKI N INJURY   PATIENTS OVER AGE 69                                35.
      239   BONE CANCER                                                        33.
      429   MENTAL RETARDATION                                                 31.
      183   DIGESTIVE DISORDERS , PATIENTS AGE 18-69                           30.
      243   MED I CAL BACK PROBLEMS                                    113     30_

      157   ANAL PROCEDURES , PATIENTS OVER AGE 69                             28.
      325   URINARY TRACT DISORDERS ,   PATIENTS OVER AGE 69                   27.
            DEGENERATIVE NERVOUS SYSTEM DISORDERS                              25.
            UPPER RESPIRATORY TRACT INFECTIONS , PATIENTS                      23.
              OVER AGE 69

      294   DIABETES, PATIENTS OVER AGE 35                             121     22.
            RESPIRATORY NEOPLASMS                                              20.
                         RECOMMNDATIONS


 RECOMMNDATION #l--IMPROVED PRO IDENTIFICATION OF UNCESSARY
 HOSPITAL ADMISSIONS

FINDING: The OIG found that 10. 5 percent of the admissions
sampled in the National DRG Validation  Study were 

                                                     unnecessary.
Both the OIG and SuperPRO have identified substantially     higher

rates of unnecessary admissions than the
conduct admissions reviews using a varietyPROs.    The PROs
                                            of screening
The HCFA requires that PROs conduct an intensified reviewtools.
                                                              in

hospi tals when either 5 percent of their Medicare admissions

or six Medicare cases-- whichever is greater--
unnecessary. Applying this                     are found to be

                             standard to the OIG hospital
sample , 71 percent of the hospitals would be
intensified PRO review. Hospi
                          
                    subj ect
                               tal and case characteristics of

unnecessary admissions include:
     Hospi tals with the highest rates of unnecessary

     admissions (20 percent or more of their admissions)
     had twice as many premature discharges and patients    also
     quality of care problems.
                             with
     Small , rural, nonteaching and/or for-
                                            profit hospitals had
     higher rates of unnecessary admissions.


     Most of the unnecessary admissions needed medical

     attention , but care should have been in outpatient
     settings.
     Unnecessary admissions had shorter average lengths of

     stays.
     Five DRGs were associated frequently with unnecessary

     admissions.
RECOMMNDATION: The HCFA should ensure that Medicare does not
pay for unnecessary admissions
                               by:
    determining why the PROs identify a substantially lower

    rate of unnecessary admissions than either the SuperPRO

    or the OIG


    analyzing admission review practices of PROs with low

    disagreement rates to identify exemplary models and best

    practices which could be used to assist other PROs

    developing acceptable disagreement rates between PROs and

    the SuperPRO for unnecessary admissions and creating

    incenti ves for the PROs to reduce their disagreement
    rates.
                                                                                                                        -.




                          IDARISO OF HOITALS BY                tUR          OF lJNECESSY ADISSIONS                            BESIZE EFFECT          1=239
                                                                       Anl       is of all 7     05
                                 100 Beds (N=79)                               100-29 Beds (N=80)                                     300+ Beds (N=80)

                                                                                                                                                                             Over-
  Hospitals               1 - 2    3 - 5     6 - 17                           1 - 2    3 - 5     6 - 17                              1 - 2    3 - 5    6 - 17             All
  wi th UAs        UAs     UAs      UAs       UAs     Average         UAs      UAs      UAs       UAs        Average         UAs      UAs      UAs      UAs     Average Average



CMI                9621 1. 0307 1. 0025        9411     9943     1 . 1346       1057 1. 1032          9739    1. 0922         3410    2230 1. 1713       1935    1.   2084     0987

Av. pt. Age       75.      76.      76.       74.      75.           74.       73.       73.         74.       73.           72.     71.88 72.          70.       72.         73.

Av. lngth. Stay                                                                                                              10.

% Rural           87.      75.      94.       70.      79.           18.       33.       28.         40.      30.            16.                                             38.
% Profi t                            15.      20.                              18.       25.         10.       17.

% Nonteaching     100.    100.      94.       95.     98.            54.       70.      93.      100.         81.25          33.     41.67 47.          75.      45.         74.

% Cases
Nosoc. Infec.
% Cases
  C. Problem      10.                11.      15.      11.                                           10.

% Cases
lnapp. Doc.       39.     31.       40.       55.     40.            29.       33.      44.          49.      39.            29.     32.      45.       54.      38.         39.
% Cases
Recoded DRGs      27.      22.      25.       23.     24.            17.       19.       17.         19.       18.           19.     16.       16.      18.       16.        19.

Wt. Change

Recoded DRG        0052     1245      0940     1554      1129         0424      0636      1128        0325      0648         02265    0034     0974      1033         0433    0775
                                                               -.                                                    -.




                          aJARISO Of HOITALS BY               tUR          OF LWNECESSY ADISSIONS                          BESIZE EFFECT          N=239
                                                        Anl         is of 6    310 Necsa            Adission Onl
                                 100 Beds (N=79)                              100-299 Beds (N=8O)                                  300+ Beds (N=80)


                                                                                                                                                                          Over-
  Hospi ta I s            1 - 2    3 - 5    6 - 17                           1 - 2    3 - 5    6 - 17                            1 - 2     3 - 5    6 - 17                 All
  wi th UAs        UAs     UAs      UAs     UAs      Average         UAs      UAs      UAs      UAs        Average    UAs         UAs       UAs      UAs     Average     Average


CMI                9621 1. 0420      0317    9890      0180 1. 1346 1. 1183             1456        0383      1214        3410     2451      2229 1. 3081     1 . 2460    1. 1289
Av. Pt. Age       75.      76.      76.     74.       75.           74.       73.      73.      75.         73.       72.         71.       72.      70.       72.         73.
Av. lngth. Stay                                                                                              7.78     10.
% Rural           87.      75.      94.     70.       79.           18.      33.       28.      40.         30.       16.                                                 38.
% Profit                            15.     20.                               18.      25.      10.         17.
% Nonteaching     100.    100.      94.     95.       98.       54.          70.       93.     100.         81.25     33.        41.       47.       75.      45.         74.
% Cases
Nosoc. Infec.                        2.78                                                       10.
% Cases
  C. Problem      10.               10.     14.       10.                                       10.
% Cases
lnapp. Doc.       39.     28.       34.     43.       34.       29.          31.      39.       37.         35.       29.        29.       40.      42.       35.         34.
% Cases
Recoded DRGs      27.     22.       22.     24.       23.       17.          19.       16.      17.         17.       19.        16.       15.      18.       16.         19.
Wt. Change

Recoded DRG        0052    1229      1240    1813      1260         0424      0494      1116        0152     0514         0227    0020      1034     1333      0480        0749
                                                                                                                       APPEND I X 8





                   COARIsa OF HOITALS Bf IUR                       OF UNCESSf          ADInSSHIIS
                                                   /IJUIAI   LOCTION         1=29
                                             Anl      is of all 7      05
                                   Rural (N=92)                                      Urban (N=147)


                                                                                                                        Over-
  Hospi tals                1 - 2    3 - 5     6 - 17                          1 - 2     3 - 5      6 - 17             All
  with UAs           UAs     UAs      UAs       UAs      Average        UAs     UAs       UAs        UAs     Average Average


CMI                  0185     0353 1. 031 0       9412        0137      2025     1748       1499     0246       1520      0987

Av. Pt. Age         75.      76.       75.      74.          75.       73.     72.        72.       73.       72.        73.
Av. Lngth. Stay

% Nonteaching      100.     100.      100.     100.       100.         40.     52.        61.       87.       58.        74.
% ..100 Bed         70.     70.       60.      77.           68.               13.          1.82 37.           10.       33.
% 100-299
Beds               20.      26.       30.      22.           26.       60.     29.        41.       37.       38.        33.
% 300+ Bed          10.                10.                             33.     57.        56.       25.       51.        33.
% Cases
Nosoc . I nfec.



% Cases
  C. Problem                                    16.          10.

% Cases

lnapp. Doc.        39.      29.       42.      53.           39.       28.     33.        45.       53.       39.        39.
% Cases

Receded DRGs       22.      22.       21.      22.           21.       19.     17.        16.       21.       18.        19.

lit. Change

Receded DRG          0203     1133      1024      1138        1026      0491    0340        1014      1226     0603       078
                  COARlsa OF HOITALS BY IUR                        OF lIlIECESSY ADIUSSUJlS
                                            RlL                               11=239
                                  Anl       is of 6   310   Nec
                                                      BA LOCTIO!
                                                                           Acission onl

                                  Rura l (N=92)                                         Urban (N=147)


                                                                                                                          OVer-
  Hospitals                1 - 2     3 - 5     6 - 17                            1 - 2     3 - 5       6 - 17              All
  wi th UAs         UAs     UAs       UAs       UAs      Average         UAs      UAs       UAs        UAs      Average Average



CMI                 0185     0478       0680      9869      1.   0393    2025      1924 1. 1964          1019      1851   1. 1289

Av. Pt. Age        75.     76.        75.       74.          75.        73.       72.         72.       74.      72.       73.

Av. Lngth. Stay

% Nonteaching     100.     100.      100.      100.         100.        40.       52.         61.      87.       58.       74.

% ..100 Beds       70.     70.        60.       77.          68.                  13.          1.82 37.           10.      33.
% 100-299
Beds               20.     26.        30.       22.          26.        60.       29.         41. 82   37.       38.       33.
% 300+ Bed         10.                10.                               33.       57.         56.       25.      51.02     33.
% Cases
Nosoc. Infec.
% Cases
  C.   Problem                                  15.

% Cases
Inapp. Doc.        39.      27.       36.       39.          33.        28.       31.         39.      43.       35.       34.

% Cases
Recoded DRGs       22.      22.       20.       21.          21.        19.       18.         16.       21.       17.      19.

Wt. Change

Recoded DRG         0203     1129       1162      1173           1066    0491      0271        1093      1613      0594     07'2
                    -.




                                                                                                                           APPEND I X C




                    C(ARISO OF HOITALS BY
                                          PRFIT
                                                         IIR OF tlllCESSY               IIISSIIJ
                                                         -PRFIT STATU         11=29
                                                Anl    is of all 7      05
                                Non-Profit (N=216)                                   Profit        (N=23)

                                                                                                                            Over-
   Hospi ta l s                 1 - 2   3 - 5    6 - 17                       1 - 2       3 - 5      6 - 17             All
   with UAs              UAs     UAs     UAs     UAs      Average       UAs    UAs         UAs        UAs      Average Average


CMI                      1289    1274     1092    9783        1015            1. 0792 1. 012            9931    1.   072    1. 0987
Av. Pt. Age          74.        74.     73.      74.         74.               72.          72.       72.        72.         73.
Av. Lngth. Stay 



% Rural              40.        37.     37.      55.         40.                            23.       40.       21.          38.
% Nonteaching        64.        67.     72.      93.         72.              100. 00       92.      100.       95.          74.
% .:100 Bed          32.        35.     22.      55.        33.                             23.       80.       30.          33.
% 100-299
Beds                 44.        24.     33.      31.        30.               100.          61.       20.       60.          33.
% 300+ Bed           24.        40.     44.      13.        36.                             15.                              33.
% Cases
Nosoc. Infec.
% Cases
  C. Problem                                     13.                                                  12.
% Cases
lnapp. Doc.          32.        32.     44.      52.        39.               34.          42.        60.       44.         39.
% Cases
Receded DRGs         20.        19.     18.      20.        19.               19.          17.        28.       20.         19.
Wt. Change

Receded DRG              0188    061     0931     0925                         0712          1531      2252      1510        0767
                  -.




                  C(ARI!D Of          HOITALS BY         ILR         OF   IECESSY           ADISSUJlS
                                          PRFIT    IO-PRFIT STATU             1=239
                                    Anl      is of 6   310 Neces           Adission Onl

                              Non-Profi t (N=216)                                         Profit (N=23)


                                                                                                                           Over-
  Hospitals                   1 - 2   3 - 5      6 - 17                         1 - 2         3 - 5     6 - 17              All
  with UAs             UAs     UAs     UAs       UAs      Average         UAs    UAs           UAs       UAs     Average Average


CMI               1.289         1433 1.1511       0413          1305            1 . 0930      1. 1507     0394      1140   1. 1289
Av. Pt. Age        74.        74.      73.       74.           74.                  73.        73.       72.      73.       73.
Av. Lngth. Stay

% Rural            40.        37.     37.        55.           40.                             23.      40.       21.      38.
% Nonteaching      64.        67.     72.        93.           72.              100.           92.      100.     95.        74.
% ..100 Beds       32.        35.     22.        55.           33.                             23.      80.      30.       33.
% 100-299
Beds               44.        24.     33.        31.           30.              100.           61.54 20.         60.       33.
% 300+ Beds        24.        40.     44.        13.           36.                             15.                         33.
% Cases
Nosoc. Infec.
% Cases
  C. Problem                                     11.84                                                  11.
% Cases
lnapp. Doc.        32.        29.     39.        40.           34.                  32.        35.      49.       38.      34.
% Cases
Recoded DRGs       20.        19.     17.        20.           19.                  19.        17.      28.       20.      19.
lit. Change

Recoded DRG            0188    0611       1015    1120          0722                 0763       1697     2432      1654     0812
                                                                 -.




                                                                                                                         APPEND IX 0





                  aJARISO OF HOITALS BY tUR                     OF         NECESSY ADISSIONS
                                   TEACHING      IO-TEACHING STATU                    239
                                          AnL      is of ALL 7        050 Caes
                          Non-Teaching (N=178)                                        Teaching (N=61)


                                                                                                                          Over-
  HospitaLs               1 - 2   3 - 5   6 - 17                               1 - 2     3 - 5      6 - 17                 AL L
  wi th UAs        UAs     UAs     UAs     UAs       Average          UAs       UAs       UAs       UAs      Average Average


CMI                0485 1. 0931     0737 9747         1 . 0608        2719        1973       2124     0720    1 . 2094      0987
Av. Pt. Age       75.     75.     74.      74.          74.          72.        71.         72.     68.        71.         73.
Av. Lngth. Stay

% RuraL           62.     51.     46.      56.          51.                                                                38.
% Profi t                          18.     15.          12.
% ..100 Bed       50.     48.     28.      59.         43.                                          50.                    33.
% 100-299
Beds              37.     28.     46.      31.25       36.           55.        27.                           24.          33.
% 300+ Bed        12.     22.     25.                  20.           44.        72.      85.        50.       72.          33.
% Cases

Nosoc. Infec.
% Cases
  C. Problem                               13.

% Cases
Inapp. Doc.       38.     32.     44.      54.         41. 33        21.        32.      41.        41.       34.          39.
% Cases

Receded DRGs      23.     19.     18.      22.         20.           16.        18.      16.        15.       17.          19.
lit. Change

Receded DRG        0118    1021    0839     1185         0900         0942       0195       1640     1032       0367        0824
                  CQARISI OF HOITALS BY IUR                   OF lINECESSY ADISSlatS                    UAs
                                    TEACHING    NO-TEACHING STATU                   N=239
                              Anl     is of 6   310 Neces               Adissims


                           Non-Teaching (N=178)                                          Teach i ng (N=61)

                                                                                                                             Over-
  Hospi ta l s             1 - 2    3 - 5    6 - 17                                1. 2     3 - 5    6 - 17                   All
  with UAs          UAs     UAs      UAs      UAs     Average           UAs        UAs       UAs      UAs     Average Average


CMI                 0485 1. 1072      1120     0371    1. 0911          2719 1. 2167          2699 1. 1031     1.   2394     1. 1289
Av. Pt. Age        75.     75.       74.     74.        74.         72.            71.       72.     70.        71.           73.
Av. Lngth. Stay

% Rural            62.     51.      46.      56.        51.                                                                  38.
% Profi t                            18.     15.        12.                                                         1.64
% ..100 Beds       50.     48.      28.      59.        43.                                          50.                     33.
% 100-299
Beds               37.     28.      46.      31.        36.         55.            27.                          24.          33.
% 300+ Beds        12.     22.      25.                 20.         44.            72.       85.     50.        72.          33.
% Cases
Nosoc. Infec.
% Cases
  c. Problem                                 12.

% Cases
Inapp. Doc.        38.     30.      39.      42.        36.         21.15          29.       36.     31.       30.           34.
% Cases
Recoded DRGs       23.     19.      17.      21.        19.         16.            18.       16.     19.        17.          19.

lit. Change

Recoded DRG         0118    1020     0923      1396      0972           0942       . 0364     1758    1032          0320 I     0806
                                                                 1- .
                                                      APPENDIX E


                    SAMPLING AND METHODOLOGY


The National DRG Validation study used a stratified two- stage
sampling design based on hospitals. The sample divided the

population of hospitals meeting the study I s   eligibility
criteria  (outlined below) into three groups based on bed
size:  less than 100 beds , 100 to 299 beds, 300 or more beds.
The first stage used simple random sampling without

replacement to select 80 hospitals within each group for a

total sample size of 240 hospitals. First , it included only
acute care , short- stay facilities. This test also excluded

special ty institutions such as children I s hospitals. Second
as of October 1 , 1983 , a waiver provision exempted New York

New Jersey, Massachusetts and Maryland from PPS. Therefore
the sample excluded facilities in these States. Third , each

facility had to have contributed data to the construction of

the initial relative weights assigned to DRG categories at

the start of PPS.    These initial relative weights derived
from a 20 percent sample of Medicare discharges from

facilities participating in the program in 1981. To 

included in the sampling frame , a facility had to both

(a) contribute discharges to the construction of the initial
relative weights and (b) participate as a provider at the

beginning of PPS , October 1, 1983.


The effective universe of hospitals available for study

numbered 4 913.    Of the initial sample of 240 hospitals
1 facility terminated its Medicare eligibility between the

sampling time frame and the actual collection of medical

records. The first-   stage sample therefore included 239
( 4. 9 percent) randomly selected , short term , acute care
facilities eligible under the Medicare program since at

least 1981 and not located in a waiver  state.
The second stage of the design employed systematic random

sampling to select 30 Medicare discharges from each of the

239 hospitals. The HCFA' s Bureau of Data Management and

strategy supplied a list of all final bills they received from

the fiscal intermediaries through April 30 , 1985. Each bill

represented one Part A Medicare discharge for the time period

October 1 , 1984 to March 31 , 1985. If a facility had fewer

than 30 discharges during the applicable period , all available

Medicare discharges were selected.



                              E- 1

A hospital was considered to    be:
     urban if it was located within a standard metropolitan

     area as defined by the Bureau of Census


     teaching if it had an accredited residency program


     for- profit   if so listed by the American Hospital
     Association
     small if the HCFA- certified bed size was less than 100

     beds
     medium if the HCFA-certified bed size was between 100

     and 299 beds inclusive


     large if the HCFA- certified bed size was more than 299

     beds.
These classes of hospitals became a central basis for

analysis of the selected variables. To the basic classifica­

tions of urban/rural , teaching/nonteaching, profit/nonprofit

and small/medium/large , we added a furthur division--the
frequency of unnecessary admissions in    hospitals. This
permitted comparisons , for example , between small hospitals

with no unnecessary admissions and small hospitals with six or

more unnecessary admissions.
Further analysis was conducted to determine whether hospitals

treated necessary admissions differently than unnecessary

admissions. Comparisons were made once again by using the
weighted averages of pertinent variables for necessary and

unnecessary admissions.
Fiscal Pro;   ections
     First , projections were made using the actual dollars
     paid for the 7 050 Medicare patients in the sample

     (derived from HCFA PATBILL files). We multiplied the

     number of patient discharges in each bed size category by

     the average cost per discharge in bed size categories for

     a total in rounded    figures. Calculations show the total
     dollars paid to sampled hospitals in the three bed size

     categories.   Small hospitals , for example, were paid
     $4. 98 million for 2, 276 discharges at an average cost of
     $2, 186.




                                E- 3

PPS admissions 
         FY 1985                    Small          Medium      Lar
# discharges (in millions)                           1. 52
Multiplied by average cost/
  discharge                                           186            222          999
Yields dollars paid (in
  millions)                                           323     $10, 020       $14, 596
Times percentage of sample

 dollars for unnecessary

  admissions                                       x 10.

Yields dollars for

  unnecessary admissions                           $345.       $751.5         $890.
    (in millions)


Total dollars (in millions)
    spent on unnecessary           admissions:                                 987.

          Finally, we estimated Medicare dollars which would have

          been spent for the care of unnecessary admissions in

          other medical settings. Analyz ing a subsample of the

          740 unnecessary admissions , we compared actual acute care

          costs with an estimate of costs for specific medical

          treatment in an alternative          setting.
                                                 Projections were
          made to the universe for patients requiring medical

          attention.
                               Small           Medium        Lar             Tota 1

Hospital costs for
 unnecessary
 admissions (in
 millions)                         $345.       $751.5        $890.             987.
Costs        for patient
    care      in other
   medical settings
    (in      millions)              155.           353.       429.             939.
Difference between

  acute and non- acute
   medical settings
    (in millions)                  $190.       $397.         $460.          $1, 048.



                                           E- 5

                                          APPENDIX F




 DISTRIBUTION OF HOSPITAL BY NUER
  UNCESSARY ADMISSIONS (UAs) (N=239)
UAs            Hos   itals       Percent
                                  10.
                                  18.
                                  20.
                                  16.
                                  10.


                                   1. 7




                                   1. 3
    (%)




                                                                                               APPEND         IXG




                            CHACTERISTICS OF HOITALS IJITH 6+ lJNECESSY ADISSIONS       N=34


                                             QU I
          FEDERA                            OF        PRTlE               RLLI       TEACH IIiGI        PRF    IT
  STATE   REGION    ADITS                    CASES    DISCHAGES    SIZE             tDTEACH IIiG        tDPRFIT
                                    56.
                                    50.
                                    40.
                                    40.
                                    40.
                                    36.
                                    34.
                                    33.
                                    30.
                                    30.
                                    26.
                                    26.
                                    26.7
                                    26.
                                    23.
                                    23.
                                    23.
                                    23.
                                    23.
                                    21.
                                    20.
                                    20.
                                    20.
                                    20.
                                    20.
                                    20.
                                    20.
                                    20.                                                                  .NP
                                    20.
                                    20.
                                    20.
                                    20.
                                    20.
                                    20.

  TOTAL             1018      274            131
                            (37.           (28.        (29.




     1 PERCENTAGES ARE BASED ON THE FACT THAT THERE WERE 740 UNNECESSARY ADMISSIONS

                                                                                   , 464 CASES WITH QUALITY

OF CARE PROBLEMS AND 74 PREMATURE DISCHARGES IN THE SAMPLE OF 7 050 PATIENTS.

                                                                                                APPEND   IXH




                       lMNECESSY ADISSIGiS BY MAJCJ DIAGNTIC             CATE         tIC
                                                     (N=740)

                                                                            # of       # All    % of
IIC                           DESCIPTlCI                                               Adi ts
      0 i seases and Disorders        the Musculoskeletal       System          106     627     16.
         and Connect i ve Tissue

      0 i seases and 0 i sorders      the Digestive System                      106             12.

      0 i seases and Di sorders of the Respi ratory System                             1052

      0 i seases and 0 i sorders      the Eye                                           104     70.

      0 i seases and 0 i sorders      the Circulatory System                           1643

      0 i seases and 0 i sorders      the Nervous      System                           565

      Endocrine ,    Nutritional and Metabol                                            348     11.
         Diseases and 0 i sorders

      0 i seases   and Disorders of   the Ear Nose and Throat                           155     23.

      0 i seases and 0 i sorders      the Kidney and Urinary Tract                      332     10.

      Factors Influencing Health Status                                                         39.
         and Other Contact wi th Hea       l th   Servi ces

      Diseases and Disorders of the Skin                                                181     13.
         Subcutaneous Tissue and Breast

      Menta l 0 i seases and 0 i sorders                                                112     21.4

      Hepatobi l iary System and Pancreas                                               194

      Myeloprol i ferat ive Di seases and 0 isorders                                    120     12.
          and Poorly Differentiated Neoplasms

      0 i seases and 0 i sorders      the Male Reproductive System                      194

      0 i seases and 0 i sorders      the Female Reproductive System                            12.

      Blood Blood Forming Organs                                                                11.4
         and IlIni logical Di seases and 0 i sorders

      Infectious and Parasitic Diseases                                                 108

      Substance Abuse and Substance         Induced                                             19.
          Organi c Mental    Disorders
      DRG 468

      Injury,      Poisoning and Toxic Effects of Drugs

      Burns                                                                                     20.

      Pregnancy,      Chi ldbirth and the Puerperium
